HHS/OIG, Audit -"Medicaid Payments For School Based Health Services Holyoke, Massachusetts -July 1999 Through June 2000,"(A-01-02-00004)
Department
of Health and Human Services
"Medicaid Payments For School-Based Health Services Holyoke, Massachusetts - July 1999 Through June 2000," (A-01-02-00004)
January 8, 2003
Complete
Text of Report is available in PDF format (902 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based health services by the Holyoke Public
Schools through the Commonwealth of Massachusetts were reasonable, allowable and adequately supported in accordance with
the terms of the state Medicaid plan and applicable federal regulations. The audit period included Medicaid payments made
during the period July 1, 1999 through June 30, 2000.
We found that the Holyoke Public Schools inappropriately claimed the cost of school-based health services: (1) when personnel
did not possess required qualifications, (2) when the school system did not locate any documentation to demonstrate that
services prescribed in the individualized education plan (IEP) were delivered, (3) for students who were not prescribed
to receive: services by a current IEP, (4) for the wrong prototype, and (5) when students were absent. As a result, we
estimate that the Holyoke Public Schools were inappropriately overpaid at least $191,551. We recommended that the school
system develop and/or improve procedures to ensure that: all health services are rendered by Medicaid eligible providers;
service providers document all health services delivered to Medicaid recipients; Medicaid billings are based on accurate
attendance records, and students have a current IEP that prescribes direct services; and the correct prototype is used.
We also recommended that school system refund amounts that were inappropriately paid. Holyoke Public School officials generally
agreed with the procedural recommendations and stated they are developing written policies and were taking corrective action.